______________________________

MEMORANDUM

                                                                               September 18, 2000
To:       Jayne Seidman
From: Walter Stachnik
Re:       Security Camera Taping (OIG-307)
During the course of a recent investigation at the Commission’s Judiciary Plaza (JP) building
(OIG-307), we identified a need for improved management controls with regard to security
camera taping.
The JP building currently has 39 security cameras. Pictures from the various cameras are
recorded on a rotating basis. The Facilities Branch of the Office of Administrative and
Personnel Management (OAPM) maintains the tapes. Tapes are retained for several months
and are then reused.
During our investigation, we attempted to review a security camera tape for June 5, 2000, for
pictures from the camera located in the south freight elevator. Upon reviewing the tape, we
observed that this camera, as well as three other cameras, was not recording on the tape. We
then reviewed previous tapes and discovered that these four cameras had not been recording
since January 12, 2000.1 Management determined that the cameras in question had been
excluded from the encoding list and corrected the problem.
          Recommendation A
          The Office of Administrative and Personnel Management should conduct periodic spot
          checks of the security camera tapes to ensure that all the cameras are properly
          recording. OAPM officials informed us that they have implemented a procedure for spot-
          checking the security camera tapes.
cc: Harry Fleming
Denise Green
Estee Levine
Jim McConnell
Darlene Pryor




1
    Because earlier tapes had been recorded over, we were not able to determine exactly when the cameras stopped
    recording.
